Before the Committee on Commerce, Science, and Transportation
United States Senate

For Release on Delivery
Expected at
10:00 a.m. EDT
                          Challenges Facing the
Thursday
October 18, 2007
                          U.S. Department of
                          Transportation,
CC-2008-007



                          Fiscal Year 2008

                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Inouye, Vice Chairman Stevens, and Members of the Committee:

We appreciate the opportunity to appear today to discuss the challenges facing the
U.S. Department of Transportation (DOT) and the Nation’s transportation system.
I also want to express my appreciation for the strong support that this Committee has
shown for the Office of Inspector General (OIG) and its mission.

As you know, we report annually on DOT’s top management challenges as required
by Congress and the Office of Management and Budget. We will issue our latest
report on these issues in November.

This year, we will highlight nine challenges facing DOT across multiple modes of
transportation, including issues related       Figure 1. Fiscal Year 2008 Top Management
to funding and overseeing infrastructure                        Challenges
projects; strengthening highway, rail,    • Continuing   To Enhance  Oversight To Ensure the
and air safety; reducing congestion; and    Safety  of an Aging Surface Transportation
                                            Infrastructure and Maximize the Return on
modernizing the National Airspace           Investments in Highway and Transit Infrastructure
System (see figure 1).                      Projects
                                              • Addressing Long- and Short-Term Challenges for
The Secretary and her team have been              Operating, Maintaining, and Modernizing the National
                                                  Airspace System
responsive to the challenges we have
                                              •   Developing a Plan To Address Highway and Transit
identified in the past. In fact, many of          Funding Issues in the Next Reauthorization
these are long-standing priorities that       •   Reducing Congestion on America’s Transportation
are at the heart of DOT’s mission.                System
The Department’s Performance and              •   Improving Oversight and Strengthening Enforcement
                                                  of Surface Safety Programs
Accountability Report also tracks
                                              •   Continuing To Make a Safe Aviation System Safer
progress in addressing the issues that        •   Strengthening the Protection of Information
we have identified and shows whether              Technology Resources, Including the Critical Air
meaningful actions are underway to                Traffic Control System
address them.                                 •   Managing Acquisition and Contract Operations More
                                                  Effectively To Obtain Quality Goods and Services at
                                                  Reasonable Prices
At the outset, I would like to briefly •          Reforming Intercity Passenger Rail
highlight several pressing transportation
challenges that will require the Department to work with Congress and other
stakeholders to identify policy solutions. They are:

 • Agreeing on a long-term solution on how to finance the Federal Aviation
   Administration (FAA). Several alternatives have been proposed as to how to best
   fund FAA, including imposing user fees, adjusting the existing excise tax
   structure, and allowing the Agency to borrow for long-term capital investments.
   The Congress has established a short-term FAA financing measure that reflects the
   status quo, but a long-term reauthorization is needed.




                                                                                                  1
 • Achieving reform of intercity passenger rail. Significant progress on reform is
   unlikely without a new reauthorization of Amtrak. New reauthorization should
   address the critical questions of where intercity passenger rail makes sense, what
   types of service should be provided, how much it should cost, and who should pay
   for it. DOT must continue to work with Congress to improve the cost-
   effectiveness of Amtrak’s operations to free up funds for Amtrak’s capital
   program within the constrained Federal budget environment.

 • Resolving the short- and long-term challenges related to the Highway Trust Fund.
   DOT and Congress must first decide how to address Highway Trust Fund revenue
   shortfalls that may require near-term reductions in Federal highway spending. The
   current surface transportation authorization expires at the end of 2009, and DOT
   and Congress will need to determine funding levels and sources of funding in light
   of the growing demand for Federal infrastructure investments and escalating
   construction costs.

Today, I would like to highlight the challenges facing DOT in the areas of
strengthening aviation and surface safety and getting the most from our Federal
transportation infrastructure dollars. We have assembled these issues along three
cross-cutting areas:

 • Strengthen oversight to ensure surface safety and make the most of the Federal
   investment in highway and transit projects.

 • Enhance the safety of the Nation’s aviation system.

 • Reduce airline delays, meet anticipated demand for air travel, and address
   challenges for operating, maintaining, and modernizing the National Airspace
   System.

Strengthen Oversight To Ensure Surface Safety and Make the Most
of the Federal Investment in Highway and Transit Projects
Recent fatal highway incidents highlight the need for the Department to focus on
ensuring the safety of the Nation’s surface transportation infrastructure, particularly
for aging tunnels and bridges needing costly rehabilitation, repair, or replacement.
Additionally, the recent decision to permit some Mexican carriers to operate beyond
the commercial zones along the border underscores the need for the Department to
provide vigilant oversight to ensure the safety of the Nation’s highways. The
Department must also maximize the Federal transportation investment by ensuring
that highway and transit projects are completed in a timely and cost-effective manner.
This is critical at a time when infrastructure needs are increasing and the Nation’s
fiscal resources are struggling to meet growing demands.



                                                                                     2
Going forward, the Department will be challenged to balance the need to provide
funding for projects to repair or replace aging infrastructures with funding for projects
to reduce congestion with new capacity. Accordingly, we have identified the
following areas that need continued management emphasis.

Ensuring the safety of the Nation’s tunnels: In July 2006, a motorist was killed by
falling ceiling panels in a tunnel of the Central/Artery Tunnel Project in Boston. 1 The
safety problems that surfaced on this project call into question the oversight and
quality control processes for constructing and maintaining the Nation’s highway
tunnels. Accordingly, the Federal Highway Administration (FHWA) should develop
and implement a system to ensure that states inspect and report on tunnel conditions.

To begin addressing these problems, FHWA officials informed us that they will issue
an advance notice of proposed rulemaking by December 2007 to seek input on the
development of national tunnel inspection standards. FHWA should move
aggressively on this rulemaking and establish rigorous inspection standards as soon as
possible.

Improving oversight of the Nation’s structurally deficient bridges:                   In
August 2007, 13 people were killed when the Interstate 35W Bridge in Minneapolis,
which spanned the Mississippi River, collapsed during the evening rush hour. The
National Transportation Safety Board is investigating the cause of the collapse. This
tragic incident underscores the importance of vigilant oversight for structurally
deficient bridges (those that have major deterioration, cracks, or other deficiencies in
their structural components). Nearly 72,500 bridges across the Nation have been
designated as “structurally deficient.” As we testified last month, Federal oversight of
bridge inspections and funding for bridge rehabilitation and replacement constitute
significant challenges for DOT. 2

    • Specifically, FHWA should sharpen its focus on developing a data-driven, risk-
      based approach to bridge oversight to better identify and target those structurally
      deficient bridges most in need of recalculation of load ratings and postings.

    • Further, FHWA must identify and implement a process to determine the amount of
      Federal funds expended on structurally deficient bridges.

Carrying out commitments to closely monitor Mexican motor carriers allowed to
operate throughout the United States under the Department’s demonstration
project: On September 6, 2007, after responding to Congress regarding our audit
report issued that day, the Department initiated a 1-year demonstration project to

1
    OIG Report Number MH-2007-063, “Initial Assessment of the Central Artery/Tunnel Project Stem To Stern Safety
    Review,” August 16, 2007. OIG reports and testimonies are available on our website: www.oig.dot.gov.
2
    OIG Testimony Number CC-2007-095, “Federal Highway Administration’s Oversight of Structurally Deficient Bridges,”
    September 5, 2007.


                                                                                                                   3
permit up to 100 Mexican carriers to operate beyond the commercial zones along the
United States-Mexico border. 3 Our report called on the Federal Motor Carrier Safety
Administration (FMCSA) to address the need for coordinated, site-specific plans for
checking trucks and drivers participating in the demonstration project each time they
cross the border into the United States.

Assuming that future funding for the demonstration project is approved and the
project continues, FMCSA will need to coordinate with the states and the U.S.
Customs and Border Protection to carry out the plans for these checks. These checks
must ensure that all Mexican drivers participating in the demonstration project are
properly licensed and all trucks display a decal denoting a recent safety inspection.

Reducing highway project costs by promoting the use of value engineering: One
way to more effectively use Federal highway funds is to lower project costs by
increasing value engineering (VE) usage. VE is the systematic process of review and
analysis of a project during the concept and design phases. A multi-disciplined team
of persons independent of the project conducts the review. In our March 2007 report
on FHWA’s VE program, we found that states have missed opportunities to realize
hundreds of millions of dollars in additional savings that could have been
reprogrammed to other transportation projects. 4 FHWA should improve its VE
program by strengthening oversight and disseminating best practices to states.

Providing vigilant oversight of transit projects to control costs and schedules:
The Federal Transit Administration (FTA) has several massive infrastructure projects
in various stages of design or construction. The Agency will be challenged to ensure
that project sponsors keep these projects within budget and on schedule. Vigilant
oversight of these projects will be particularly important as FTA simultaneously
continues its oversight of a large portfolio of other transit projects across the country.
For example, the magnitude of ongoing major surface transportation projects in New
York City, with an estimated cost of over $16 billion (this includes about $8.48 billion
in Federal funds) warrants close FTA oversight to ensure that project sponsors are
exercising sound project and financial management.

Enhance the Safety of the Nation’s Aviation System
Safety is FAA’s highest priority. For more than 5 years, FAA and the U.S. aviation
industry have experienced one of the safest periods in history—even though the
industry has undergone dramatic changes. However, the August 27, 2006, crash of
Comair Flight 5191 (when pilots attempted to take off from the wrong runway) serves


3
    OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed NAFTA Cross-Border Trucking Demonstration
    Project,” September 6, 2007.
4
    OIG Report Number MH-2007-040, “Final Report on Value Engineering in FHWA’s Federal-Aid Highway Program,”
    March 28, 2007.


                                                                                                             4
as a reminder that we must do more to make a safe system safer. We have identified
the following areas that need sustained focus.

Taking proactive actions to improve runway safety in light of recent serious
incidents: Reducing the risk of runway incursions (potential collisions on airport
surfaces) is a critical safety issue that requires both proactive and ongoing efforts on
the part of FAA, airlines, and airport operators. As shown in figure 2, the number of
runway incursions decreased from a high of 407 in fiscal year (FY) 2001 to a low of
323 in FY 2003. However, the number of runway incursions has slowly increased
since 2003, reaching a high of 371 in FY 2007—a 12-percent increase over FY 2006.

Serious runway incursions also continue to occur. For example, on July 19, 2007, at
Chicago O’Hare International Airport, a collision was barely avoided when a United
Airlines aircraft exited the wrong taxiway and taxied directly underneath the path of
an arriving US Airways aircraft. Although
the controller instructed the US Airways            Figure 2. Runway Incursions
                                                         FY 1999 to FY 2007
aircraft to go around, it over-flew the nose
of the United aircraft by 50 to 70 feet.         FY 1999                    329
                                                                                                           405
                                                                FY 2001                                    407
These incidents underscore the need for                                                              339
proactive efforts that are both technological                   FY 2003                             323
                                                                                                    326
and programmatic in nature.          A key
                                                                FY 2005                             327
technology for reducing runway incursions                                                           330
is the Airport Surface Detection Equipment                     *FY 2007                                    371
Model-X (ASDE-X) program. FAA is                                            0     100   200   300     400        500
developing ASDE-X to aid air traffic                         Source: FAA
controllers in preventing runway incursions.                 * Preliminary data



Keeping this important technology on track is critical because ASDE-X is currently at
risk of not meeting its cost and schedule goals to commission all 35 systems for
$549.8 million by 2011.

When we testified before the Senate Appropriations Committee in May, 5 FAA had
already expended about $288 million (52 percent of the total ASDE-X planned
funding) but had only deployed 8 of the 35 systems. Additionally, at the deployed
sites, FAA had yet to implement the planned capability to alert controllers of potential
collisions on intersecting runways and taxiways.

FAA also needs to take programmatic actions to reduce runway incursions. In May,
we reported 6 that several national initiatives for promoting runway safety (undertaken


5
    OIG Testimony, CC-2007-054, “FAA’s FY 2008 Budget Request: Key Issues Facing the Agency,” May 10, 2007.
6
    OIG Report Number AV-2007-050, “Progress Has Been Made in Reducing Runway Incursions, but Recent Incidents
    Underscore the Need for Proactive Efforts,” May 24, 2007.


                                                                                                                       5
by FAA as early as 2000) have waned as the number of incidents declined and FAA
met its goals for reducing runway incursions. Actions needed include:

 • Improving information sharing among users to identify root causes of pilot
   deviations and communicate best practices to reduce runway incursions.

 • Placing additional focus on controller human factors issues and training to
   improve individual, team, and facility performance.

 • Assigning greater authority and accountability at the national level to ensure that
   runway safety remains a priority for all FAA lines of business.

FAA has begun addressing these concerns. For example, FAA met with airline and
airport officials and agreed to a five-point, short-term plan for improving runway
safety. The plan’s major focus includes conducting safety reviews at airports where
wrong runway departures and runway incursions are the greatest concern, accelerating
the deployment of improved airport signage and markings at the top 75 airports ahead
of the June 2008 mandated deadline, and reviewing cockpit procedures and air traffic
clearance procedures. These efforts are clearly steps in the right direction, but their
success will depend on ensuring that the current momentum continues and that
runway safety remains a high priority for all users of the National Airspace System.

Strengthening risk-based oversight systems for air carriers, external repair
facilities, and aircraft manufacturers: In the past 9 years, FAA has made important
progress in developing risk-based approaches to safety oversight of air carriers;
aircraft manufacturers; and, most recently, aircraft repair stations. According to
recent data provided by FAA, it has implemented the Air Transportation Oversight
System at 110 air carriers; however, 8 carriers still need to be converted to the new
system. FAA plans to complete this transition by the end of calendar year 2007. In
addition, the system requires the use of a team of inspectors with specialized
expertise, not only in technical areas such as maintenance and electronics, but also in
conducting risk assessments. Based on information provided to us, FAA has not
developed a plan that details how this transition can be accomplished with the
Agency’s limited inspector resources. FAA has indicated that it is reconfiguring field
offices to more efficiently use existing and newly hired inspector resources in
conjunction with the transition, but has not fully addressed how it plans to ensure
these inspectors have the skills needed.

FAA needs to refine its safety oversight of aircraft repair stations. For its new risk-
based system to be effective, FAA must have a sound process for determining where
critical aircraft maintenance is performed. FAA developed new inspector guidance
and air carrier processes to address this problem, but these efforts still fall short of
providing FAA with the information it needs. For example, FAA developed a process
for air carriers to report the top 10 critical maintenance providers used each quarter,


                                                                                      6
but this reporting is voluntary; also, FAA inspectors are not required to validate the
data that air carriers submit.

Further, FAA’s new risk-based system does not include a process for overseeing
critical repairs performed by non-certificated repair facilities. In 2005, we reported
that over 1,400 non-certificated repair facilities were performing maintenance for U.S.
air carriers and that more than 100 of these facilities were located in foreign
countries. 7 FAA’s efforts to improve its oversight of non-certificated repair facilities
are still underway.

FAA will also need to modify its risk-based system for manufacturers so that
inspectors can more effectively oversee manufacturing operations in today’s complex
aviation environment. The new system was not designed to address the increasingly
prominent role that aircraft part and component suppliers now play in aviation.
Rather than build the majority of their aircraft within their own manufacturing
facilities using their own staff, manufacturers now have large sections of their aircraft
built by domestic and foreign part suppliers. Therefore, FAA will also need to ensure
that its risk-based system includes an assessment of the number of suppliers
manufacturers now use.

Maintaining a sufficient number of inspectors: The rapidly changing aviation
environment makes it imperative for FAA to maintain a sufficient number of
inspectors in the right locations. FAA has approximately 4,000 inspectors located in
offices throughout the United States and in other countries. These inspectors must
oversee both domestic and foreign aspects of air carriers’ maintenance and operations.
FAA expects to hire approximately 287 aviation safety inspectors in FY 2008. FAA
also expects to lose approximately 200 aviation safety inspectors during the same
period, which would result in a net increase of 87 inspectors in FY 2008. FAA
requested funding for these 87 inspectors in FY 2008; this would be an increase over
FY 2007 staffing levels. FAA faces an additional challenge with approximately
48 percent of the inspector workforce eligible to retire by 2012.

FAA must ensure that its inspectors are properly trained. Using risk-based oversight
systems is a foundational part of FAA’s plan to meet future oversight challenges, but
it requires that inspectors be skilled in risk analyses. Therefore, the Agency needs to
improve its hiring and training efforts if it is to maintain a sufficient number of
inspectors with the right skill set to oversee a dynamic aviation industry.




7
    OIG Report Number AV-2005-062, “FAA Safety Oversight of an Air Carrier Industry in Transition,” June 3, 2005.


                                                                                                                    7
Reduce Airline Delays, Meet Anticipated Demand for Air Travel, and
Address Challenges for Operating, Maintaining, and Modernizing
the National Airspace System
The Department is pursuing a national strategy to reduce congestion across all modes
of transportation. Congestion limits economic growth, wastes fuel, and costs billions
of dollars in lost productivity each year. This will likely remain a prominent
challenge for the Department for some time, particularly with regard to air travel. We
are seeing record-breaking flight delays and cancellations, and forecasted air travel
demands will continue to strain system capacity. This year’s airline customer service
issues drew national attention and underscored the need for the Department’s
continued focus in this critical area. While the Department has made progress on
implementing a number of congestion-related initiatives this past year, the strategy
was developed before this year’s significant air travel problems. Reducing aviation
delays and customer dissatisfaction with air travel is the most urgent congestion
priority facing the Department. The Department and FAA also face several
challenges in operating and modernizing the National Airspace System. This includes
hiring and training a new air traffic controller workforce, reducing risks associated
with the Next Generation Air Traffic Control System (NextGen), and ensuring that
current modernization projects remain on track.

Reducing delays and improving airline customer service while meeting the
anticipated demand for air travel: Reducing delays and meeting the anticipated
demand for air travel are urgent issues. The National Airspace System is operating at
the fringes of capacity, and record-breaking flight delays and cancellations are leading
to long, on-board delays.

During the first 7 months of 2007, airlines’ on-time performance was at the lowest
percentage over the last decade, with nearly 28 percent of flights delayed, cancelled,
or diverted. During the same period, over 54,000 scheduled flights, affecting nearly
3.7 million passengers, experienced tarmac delays of 1 to 5 hours or more (see table).
This is an increase of nearly 42 percent as compared to the same period in 2006.

         Table. Number of Flights With Tarmac Delays of 1 to 5+ Hours
                   January Through July of 2006 and 2007
                   Time Period        2006        2007      % Change

                     1-2 Hrs.          33,438      47,558         42.23
                     2-3 Hrs.            3,781      5,213         37.87
                     3-4 Hrs.              710      1,025         44.37
                     4-5 Hrs.              120        189         57.50
                    5 or > Hrs.             27         44         62.96
                  Total:             38,076      54,029       41.90
                 Source: BTS data



                                                                                      8
Consumer complaints are also rising. DOT’s Air Travel Consumer Reports disclosed
that, for the first 7 months of 2007, complaints relating to flight problems (delays,
cancellations, and missed connections) more than doubled, from 1,096 to 2,468, as
compared to the same period in 2006.

The Department should take a more active role in overseeing customer service issues
to ensure that airlines comply with their policies involving flight problems. Secretary
Peters is committed to taking action, but there is no “silver bullet” solution to this
problem. We believe that a cumulative mix of solutions would help the situation,
including scheduling procedures, air traffic control modernization, and additional
ground infrastructure. Other solutions, such as peak hour pricing, involve complex
policy questions. It is also important to remember that the traveling public will likely
face similar air travel problems in the spring and summer of 2008 and 2009 before
they experience any real relief from capacity problems.

The airlines and airports must also do their part in the short term to effectively
implement their customer service plans—including contingency plans—especially
when their extraordinary flight disruptions cause significant delays, cancellations, and
diversions.

Hiring and training a new controller workforce: Through 2016, FAA must hire
and train over 15,000 new controllers as controllers hired after the 1981 strike retire.
In December 2004, FAA developed a comprehensive workforce plan to address this
challenge and issued the first in a series of annual reports to Congress. FAA issued its
first update to the plan in June 2006 and the second in March 2007. In February, we
issued the results of our review of FAA’s progress in implementing its controller
workforce plan. 8 Overall, we found that FAA continues to make progress in
implementing a comprehensive staffing plan to address the surge in retirements.
However, further progress is still needed in key areas. These include:

    • Completing validation of accurate facility-level staffing standards. This is a
      critical component because FAA has over 300 air traffic facilities with significant
      differences in air traffic levels and complexity.

    • Establishing baseline metrics to measure the effectiveness of controller
      productivity initiatives. FAA must ensure that reductions in staffing are a result of
      increased productivity and not simply fewer controllers controlling more traffic.

    • Continuing efforts to reduce the time and costs associated with on-the-job training.
      This is the longest and most expensive portion of new controllers’ training.


8
    OIG Report Number AV-2007-032, “FAA Continues To Make Progress in Implementing Its Controller Workforce Plan,
    but Further Efforts Are Needed in Several Key Areas,” February 9, 2007.


                                                                                                               9
Reducing cost, schedule, and technical risks with NextGen: The development and
execution of NextGen is the most complex, high-risk effort FAA has ever undertaken
and will require multibillion-dollar investments from the Government and airspace
users. While costs for developing and implementing NextGen remain uncertain, FAA
expects to spend $4.6 billion on NextGen initiatives between 2008 and 2012. The
bulk of these funds will be spent on developmental efforts and projects such as the
Automatic Dependent Surveillance-Broadcast Program—a satellite-based system that
allows aircraft to broadcast their position to controllers and other properly equipped
aircraft.

In our February 2007 report, we examined progress with FAA’s Joint Planning and
Development Office, 9 which is responsible for developing a vision for NextGen, and
highlighted needed actions. We recommended, among other things, that FAA
develop a strategy for obtaining the necessary expertise to execute NextGen initiatives
and review existing modernization projects to determine required adjustments.

FAA has begun addressing our concerns. FAA must also continue to address
complex engineering and integration issues and develop an effective human factors
program (for controllers and pilots) to ensure that anticipated changes can be safely
introduced.

Keeping existing modernization projects on track: FAA’s major acquisitions have
a long history of cost growth and schedule delays. For example, two acquisitions, the
Wide Area Augmentation System (a satellite-based navigation system) and the
Standard Terminal Automation Replacement System (new software and hardware for
controllers that manage traffic in the vicinity of airports), have experienced cost
growth of over $4.2 billion since their inception. Problems with FAA acquisitions are
the result of overly ambitious plans, changing requirements, complex software
development, and poor contract oversight.

It will be important to keep existing modernization projects on track because about
30 of these are intended to serve as platforms for NextGen. This includes the
$2.1 billion En Route Automation Modernization project to replace hardware and
software for facilities that manage high-altitude traffic. We note that the project is
within budget and on schedule to be deployed to Salt Lake Center in 2008. While
FAA has done a better job of managing acquisitions over the last several years, some
programs are still at risk of further cost growth, schedule slips, or diminishing
benefits.    For example, the benefits (expected cost savings) of the FAA
Telecommunications Infrastructure program (an effort to replace and consolidate all
telecommunications into a single system) have eroded as costs have increased and the
completion schedule has slipped. FAA needs to prevent schedule slips, cost growth,

9
    OIG Report Number AV-2007-031, “Joint Planning and Development Office: Actions Needed To Reduce Risks With the
    Next Generation Air Transportation System,” February 12, 2007.


                                                                                                               10
and performance shortfalls with ongoing projects that could delay NextGen
capabilities needed to enhance capacity.

Enhancing air traffic control system security and continuity planning: The
President has designated air traffic control systems as part of the Nation’s critical
infrastructure due to the important role that commercial aviation plays in fostering and
sustaining the economy and ensuring citizens’ safety and mobility. We previously
reported deficiencies in protecting this critical infrastructure in two areas: (1)
continuity planning to restore essential air traffic service in case of prolonged service
disruptions at enroute centers and (2) review of operational air traffic control services
security outside of the computer laboratory.

During FY 2007, under the Deputy Administrator’s (now Acting Administrator)
direction, FAA undertook initiatives and made modest progress in both areas, such as
developing a concept of operations for business continuity planning. However, these
are multi-year efforts, for which FAA still faces many uncertainties.

FAA also made progress during FY 2007 in reviewing air traffic control systems in
the field by developing a methodology to select high-risk systems for testing. While
this is a good initiative, we have identified two areas requiring further attention.

 • First, there are about 100 systems used to direct air traffic, none of which were
   reported as having a high-risk impact. After this was brought to management’s
   attention, the Department’s Chief Information Officer, the FAA Acting Deputy
   Administrator, and the FAA Chief Information Officer all agreed to collaborate
   with the Air Traffic Organization to ensure that air traffic control systems are
   individually reviewed and categorized in accordance with Government standards
   and departmental policy, as a key priority for FY 2008.

 • Second, FAA needs to focus on identifying and preventing unauthorized software
   changes made in air traffic control systems to meet local (field site) operational
   needs. As evidenced in our previous audit reports, such software changes could
   inadvertently create vulnerabilities to air traffic control operations.

Mr. Chairman, this concludes my statement. I would be happy to answer any
questions that you or other Members of the Committee may have at this time.




                                                                                      11
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
               Challenges Facing the U.S. Department of Transportation,
                                   Fiscal Year 2008

                           Section 508 Compliant Presentation

Figure 2. Runway Incursions Fiscal Year 1999 to Fiscal Year 2007

 • In fiscal year 1999, there were 329 runway incursions.
 • In fiscal year 2000, there were 405 runway incursions.
 • In fiscal year 2001, there were 407 runway incursions.
 • In fiscal year 2002, there were 339 runway incursions.
 • In fiscal year 2003, there were 323 runway incursions.
 • In fiscal year 2004, there were 326 runway incursions.
 • In fiscal year 2005, there were 327 runway incursions.
 • In fiscal year 2006, there were 330 runway incursions.
 • In fiscal year 2007, there were 371 runway incursions. (Note: Numbers for fiscal year
   2007 are preliminary data only.)
Source: Federal Aviation Administration

Table. Number of Flights With Long, On-Board Tarmac Delays of 1 to 5 Hours or
Longer for January Through July of 2006 and 2007

 • In the first 7 months of 2006, there were 33,438 flights with on-board, tarmac delays of 1
   to 2 hours. In the first 7 months of 2007, there were 47,558. This represents a 42.23
   percent change.
 • In the first 7 months of 2006, there were 3,781 flights with on-board, tarmac delays of 2
   to 3 hours. In the first 7 months of 2007, there were 5,213. This represents a 37.87
   percent change.
 • In the first 7 months of 2006, there were 710 flights with on-board, tarmac delays of 3 to
   4 hours. In the first 7 months of 2007, there were 1,025. This represents a 44.37 percent
   change.

 • In the first 7 months of 2006, there were 120 flights with on-board, tarmac delays of 4 to
   5 hours. In the first 7 months of 2007, there were 189. This represents a 57.50 percent
   change.

 • In the first 7 months of 2006, there were 27 flights with on-board, tarmac delays of 5
   hours or longer. In the first 7 months of 2007, there were 44. This represents a 62.96
   percent change.
The total number of flights with long, on-board tarmac delays of 1 to 5 hours or longer for
January through July of 2006 was 38,076. The total number of flights with long, on-board
tarmac delays of 1 to 5 hours or longer for January through July of 2007 was 54,029. This
represents a 41.90 percent increase.

Source: Bureau of Transportation Statistics data
